                           EXECUTIVE SUMMARY

This is the 36th Semi-Annual report issued by the Office of the Inspector General (OIG)
at the Federal Labor Relations Authority (FLRA). This report, submitted pursuant to
section 5 of the Inspector General Act, summarizes the major activities and
accomplishments of the FLRA Inspector General for the period of April 1, 2006 to
September 30, 2006.

During this reporting period, the FLRA Office of the Inspector General conducted the FY
2006 Financial Statement Audit, conducted the Personally Identifiable Information
Assessment for the Presidential Council for Integrity and Efficiency/Executive Council
for Integrity and Efficiency (PCIE/ECIE), and conducted the 2006 Financial Information
Security Management Information (FISMA) Act Evaluation. The FLRA Inspector
General, submitted to the FLRA Executive Director updated 1998 and 1999 Inspector
General instructions for implementation, created one new Inspector General Instruction
and continued reviewing FLRA instructions.

During this reporting period, the FLRA Inspector General processed 7 hotline calls and
activated one complaint regarding FLRA case handling which was on hold until the case
processing was completed. The FLRA Inspector General also provided information for
investigations conducted by the Department of Justice, the Federal Bureau of
Investigations and the Office of Personnel Management on employees who had applied
for jobs with these agencies. The FLRA Inspector General also conducted a deposition
for the Department of Justice regarding an Office of the Inspector General FY 2004
investigation and information related to contractor claims regarding the FLRA related to
the FY 2005 Financial Statement Audit.

During this reporting period, the FLRA Executive Director began to review previous
oversight findings and recommendations, which had not been responded to by
management since 2002. The FLRA Inspector General requested that the oversight
findings and recommendations released during the last two years be addressed first
and that appropriate implementation dates be provided as soon as possible.
                  THE FEDERAL LABOR RELATIONS AUTHORITY

The FLRA is an independent agency responsible for directing the labor-management
relations for 1.9 million non-postal Federal employees worldwide, nearly 1.1 million of
who are exclusively represented in approximately 2,200 bargaining units. The FLRA is
charged by the Federal Service Labor-Management Relations (The Statute), section
7105, with providing leadership in establishing policies and guidance relating to Federal
sector labor-management relations, resolving disputes arising among Federal agencies
and unions representing Federal employees, and ensuring compliance with the Statute.

The FLRA represents the Federal government’s consolidated approach to labor-
management relations. The FLRA is “three components in one,” fulfilling legal statutory
responsibilities through the Authority, the Office of General Counsel and the Federal
Service Impasses Panel. The FLRA has 7 regional offices and one satellite office. The
FLRA also provides staff support to two other organizations, the Foreign Service
Impasses Disputes Panel and the Foreign Service Labor Relations Board.

The Authority is a quasi-judicial body with three full-time Members who are appointed
for 5-year terms by the President, with the advice and consent of the Senate. One
member is appointed by the President to serve as Chairman of the Authority and as
Chief Executive and Administrative Officer of the FLRA.

The Authority adjudicates disputes arising under the Statute, deciding cases concerning
the negotiability of collective bargaining agreement proposals, unfair labor practice
(ULP) allegations, representation petitions, and exceptions to grievance arbitration
awards. In addition, consistent with its statutory responsibility to provide leadership in
establishing policies and guidance to participants in the Federal labor-management
relations program, and as part of the Collaboration and Alternative Dispute Resolution
(CADR) Program described below, the Authority assists Federal agencies and unions in
understanding their rights and responsibilities under the Statute and resolving their
disputes through interest-based problem-solving rather than adjudication.

In addition to the three Member Offices, the Authority component of the FLRA also
houses the Office of Administrative Law Judges, the Collaboration and Alternative
Dispute Resolution Office, the Office of the Solicitor, the Office of the Executive
Director, and the Office of the Inspector General.

Office of the Administrative Law Judges: The FLRA’s Administrative Law Judges
(ALJ’s) are appointed by the Authority to conduct due process hearings in accordance
with the Administrative Procedures Act and issue recommended decisions in cases
involving alleged unfair labor practices. ALJ’s also conduct hearings and issue
recommended decisions involving applications for attorney fees and files pursuant to
the Back Pay Act or the Equal Access to Justice Act. In the course of their duties, ALJ’s
conduct pre-hearing conferences, issue subpoenas, rule on motions and evidentiary
issues, and engage in settlement efforts. An ALJ decision may be affirmed, modified, or


                                 36th Semi Annual Report
                                       Page 2 of 55
reversed, in whole or in part, by the Authority. If no exceptions are filed to an ALJ
decision, the decision is adopted by the Authority and becomes final and binding upon
the parties.

Office of Policy, Project & Performance Management: The Office of Policy, Project
& Performance Management is responsible for agency-wide strategic policy and
planning, including the role of Chief Human Capital Officer. The office also provides
oversight with respect to FLRA performance management initiatives. The office drafts,
reviews, and approves all agency-wide instructions and policies; oversees the
Chairman’s and the Administration’s initiatives; and develops agency-wide initiatives,
which upon the Chairman’s final approval, are implemented through the Office of the
Executive Director. The office also houses the agency’s congressional affairs function
and serves as the Chairman’s primary point of contact with the Solicitor, Executive
Director, EEO Director, and Inspector General.

Collaboration and Alternative Dispute Resolution (CADR) Office: The CADR Office
is responsible for coordinating, supporting, and expanding the unified CADR Program.
This program involves a variety of collaboration and alternative dispute resolution
techniques at all steps of the process, from investigation and prosecution to the
adjudication of cases and resolution of bargaining impasses. The CADR Program also
provides facilitation and training programs to assist labor and management in
developing constructive approaches to conducting their relationship.

Office of the Solicitor: The Office of the Solicitor represents the Authority in court
proceedings before all United States Courts, including the U.S. Supreme Court, U.S.
Courts of Appeals, and Federal District Courts. The office serves as the agency’s in-
house counsel, providing legal advice to all FLRA components. The Solicitor is also the
Designated Agency Ethics Officers under the Ethics in Government Act of 1978, as
amended.

Office of the Executive Director: The Office of the Executive Director provides
operational support to all components of the FLRA, including budget and finance,
human resources, procurement, administrative services, and information resources
management and is responsible for developing and implementing agency-wide
initiatives, such as strategic planning.

Office of the Inspector General: The Office of the Inspector General (OIG) is
responsible for directing and carrying out audits and investigations related to the FLRA
programs and operations. In addition, the Inspector General is authorized to create and
recommend policies that promote economic, efficient, and effective agency programs,
which prevent fraud, waste, abuse and mismanagement. The Inspector General is
responsible for keeping the Chairman, FLRA and the Congress fully informed of
problems and deficiencies, as well as, the necessity for corrective actions. Public Law
100-504 and the Inspector General Act, as amended, mandate the requirements,
objectivity and independence of Federal Agency Inspectors General.


                                36th Semi Annual Report
                                      Page 3 of 55
The Federal Service Impasses Panel: The Federal Service Impasses Panel (FSIP or
the Panel) is composed of seven part-time Members who are appointed by the
President to serve for a 5-year term. One Member is appointed by the President to
serve as the Panel Chair. The Panel resolves bargaining impasses between Federal
agencies and unions representing Federal employees arising from negotiations over
conditions of employment under the Statute and the Federal Employees Flexible and
Compressed Work Schedules Act. If bargaining between the parties, followed by
mediation assistance, proves unsuccessful, the Panel has the authority to recommend
procedures and to take whatever action it deems necessary to resolve the impasse.

The Foreign Service Labor Relations Board: The Foreign Service Labor Relations
Board, (the Board) was created by the Foreign Service Act of 1980 to administer the
Labor-Management Relations Program for Foreign Service employees in the U.S.
Information Agency, the Agency for International Development, and the Departments of
State, Agriculture and Commerce. The Board is composed of three Members, including
the Chairman of the Authority who appoints the other two Members, who serve on a
part-time basis. The Chairman of the Authority also serves as Chairman of the Board.
The FLRA General Counsel acts as General Counsel for the Board, and the Authority
staff provides necessary support to the Board.

The Foreign Service Impasse Disputes Panel: The Foreign Service Impasse
Disputes Panel (the Disputes Panel) was also created by the Foreign Service Act of
1980. The Disputes Panel is composed of five part-time Members who are appointed
by the Chairman of the Foreign Service Labor Relations Board (the FLRA Chair). The
Disputes Panel resolves bargaining impasses between Federal agencies and Foreign
Service personnel in the U.S. Information Agency, the Agency for International
Development, and the Departments of State, Agriculture, and Commerce, over
conditions of employment under the Foreign Service Act of 1980. The FSIP staff
supports the Disputes Panel.

The FLRA's headquarters is located in Washington, D.C. The FLRA maintains regional
offices in Atlanta, Boston, Chicago, Dallas, Denver, San Francisco, and Washington,
D.C.

FLRA MISSION STATEMENT

The Federal Labor Relations Authority exercises leadership under the Federal Service
Labor-Management Relations Statute to promote stable, constructive labor relations
that contribute to a more effective Government.

The mission of the FLRA is to carry out five primary statutory responsibilities as
efficiently as possible and in a manner that gives full effect to the rights afforded
employees and agencies under the Statute.




                               36th Semi Annual Report
                                     Page 4 of 55
Under the Statute, the primary responsibilities of the FLRA include:

   •   Determining the appropriateness of units for labor organization representation;
   •   Adjudicating exceptions to arbitrator's awards;
   •   Resolving complaints of unfair labor practices; and
   •   Resolving impasses and issues relating to the duty to bargain.

OFFICE OF INSPECTOR GENERAL

   •   Conducts and supervises internal reviews, audits and evaluations of the
       programs and operations of the FLRA;

   •   Provides leadership and coordination, and recommends actions to management,
       which: (1) promote economy, efficiency, and effectiveness in agency programs
       and operations; and (2) prevent and detect fraud, waste, abuse, and
       mismanagement of government resources; and

   •   Keeps the Chairman, FLRA management, and the Congress fully informed
       regarding problems and deficiencies, and the progress of corrective action.

The Inspector General’s Office is currently staffed with one full time Inspector General
and one full time Administrative Assistant. When required, the FLRA Inspector General
uses contractor auditors to perform FLRA audits. The Office of the Inspector General's
FY 2005 budget was $77,500.00. The FLRA, Inspector General submitted a request to
the Chairman, FLRA for an increase in operational funding in the FLRA Office of
Inspector General for an FY 2007 Information technology security audit. No response
has been received. The Inspector General was not provided with the 2006 Office of
Inspector General budget.

OFFICE OF INSPECTOR GENERAL MISSION STATEMENT

The mission of the FLRA Office of Inspector General is to provide FLRA leadership,
along with an independent and objective assessment of the organization’s efficiency
and effectiveness. This is accomplished through proactive evaluations of FLRA
operational processes. The Inspector General provides necessary oversight and serves
as a catalyst for improving and maximizing the efficiency and integrity of FLRA
programs and operations. The goal of the Inspector General's work is to maximize the
effectiveness of FLRA programs by evaluating performance and identifying ways to
make these programs more efficient and effective. In addition, the FLRA Inspector
General strives to prevent and detect fraud, waste, abuse, and mismanagement of the
FLRA’s resources and operations, which could adversely impact the organization’s
integrity and ability to perform its mission in a timely, customer responsive manner.




                                 36th Semi Annual Report
                                       Page 5 of 55
The primary objectives of the Office of Inspector General are as follows:

   •   To evaluate the efficiency and effectiveness of FLRA program and resource
       management and identify best practices, as well as causative factors, impeding
       the accomplishment of the FLRA mission.
   •   To assist the Chairman and FLRA management in carrying out their
       responsibilities by providing them with objectives and timely information on the
       conduct of FLRA operations, together with the Inspector General’s independent
       analysis, conclusions, and recommendations.
   •   To use evaluations, internal reviews, and more traditional assessment tools of
       audits, inspections, and investigations, to maximize oversight and strengthen
       system and process controls.
   •   To support the Administration and Congress in maximizing Government integrity
       and efficiency and minimizing the occurrence of fraud, waste, abuse, and
       mismanagement.

AUDIT/INTERNAL REVIEW ACTIVITY

During this reporting period the FLRA Office of the Inspector General performed the
following audits and reviews in compliance with Government auditing standards:

Audit of 2006 FLRA Financial Statements                                     In Process

During this reporting period, the Office of the Inspector General contracted audit of
FLRA's 2006 compliance with Financial Statements began and is currently being
conducted. Part of this audit will include an assessment of previous financial audits
conducted from l998 to 2004 to assess whether previous findings and
recommendations, which were not previously addressed by FLRA management, are still
accessible. Financial Statement Audit findings from 2004 and 2005 will also be
reviewed during this audit.

The current financial statement audit includes the review of FLRA's balance sheet and
the related statements of net cost, changes in net positions, budgetary resources and
financing for fiscal year 2006. This audit also includes a comprehensive review of FLRA
internal controls and risk assessments related to the management of the FLRA’s
financial statements.




                                 36th Semi Annual Report
                                       Page 6 of 55
Internal Review of FLRA Administrative Policy                               Continuing

During this reporting period the FLRA Inspector General continued the review of FLRA
policy, which includes an initial review of related laws and legislation as well as the
FLRA policy. This review has revealed that 54 FLRA policies (34 of which were related
to human resources) were cancelled and only 4 policies have been recreated and
implemented by the Executive Director. This review is affirming that an extensive
amount of FLRA’s administrative policy requires immediate updates or revisions.

FLRA Inspector General Policies                                             Closed

During this reporting period, the FLRA Inspector General updated the following
Inspector General policies, which were created in 1998 and 1999, and created a new
policy regarding contracting activities for FLRA Inspector General audits. All of these
instructions were submitted to the FLRA Executive Director for implementation by
August 31, 2006. These updated and new policies have not yet been implemented.
These updated and new policies include:

   •   FLRA 2930.2 Audit and Internal Review Follow-Up
   •   FLRA 2920.1 Audit Policies and Procedures
   •   FLRA 6120.1 Fraud Prevention Problem
   •   FLRA 6130.1 Inspector General Assistance and Hotline
       Program
   •   FLRA 6110.1 Policies and Procedures for Conducting
       Investigations by the Office of the Inspector General
   •   FLRA 2910 Office of Inspector General Contract Services

Personally Identifiable Information Assessment                               Closed

In response to the Chairman, PCIE/ECIE, the FLRA Inspector General conducted an
assessment of the manner that the FLRA implemented and handled the FLRA’s
personally identifiable information (also defined as sensitive information) on its internal
and external computers. This personally identifiable information pertains to the names,
addresses, telephone numbers and social security numbers of Federal employees. It
does not include e-mail accesses. This assessment pertained to specific questions
provided by the PCIE/ECIE, which included security checklists for personally identifiable
information transported, stored offsite or accessed remotely, Federal agency policy
relating to this subject matter, Federal agency implemented protections for personally
identifiable information stored offsite, compliance with NIST information security
regulations, and OMB-06-15.

The FLRA Inspector Generals Assessment was done primarily by personal observation
because FLRA management did not provide the Inspector General with requested
information, which related to PCIE/ECIE requirements for Inspector General Personally
Identifiable Assessments. The FLRA Inspector General requested and was immediately


                                 36th Semi Annual Report
                                       Page 7 of 55
provided with information from external Federal Security Information Officers and
Management regarding proper encryptions for the remote access of FLRA personally
identifiable information by the Department of Treasury and Department of Interior
National Services Division. Both of these Agencies, which were involved with FLRA
administrative information, affirmed that its internal subject information was not
accessible externally.

This Inspector General assessment also affirmed that FLRA mission related sensitive
information was not provided via computers or laptops by the FLRA. However several
discussions with line management and employees indicated that once in a while an
outside Federal agency employee or union member did e-mail personally identifiable
information to the FLRA regarding cases or appeals filed with the FLRA instead of
mailing it or faxing it. This was also affirmed by several documents provided to the
FLRA Inspector General by external Federal or Union members who filed complaints
with the Inspector General and provided information, which included several such e-
mails.

The only problem indicated by this assessment was that the FLRA has not implemented
2005 prepared policy relating to NIST information security requirements or Office of
Management and Budget (OMB)’s security requirements for personally identifiable
information. Otherwise, based on this Inspector General assessment, it appears that
the FLRA is in compliance with the rest of the subject requirements.

Federal Information Security Management Evaluation                       Closed

OMB specifically identified FISMA reporting requirements for the Federal Inspectors
General, which were addressed in an independent and objective manner, however
several FLRA Inspector General requests for information from the FLRA CIO, (provided
first to management) were not provided to the Inspector General by management in
spite of several requests. The FLRA Inspector General’s evaluation of FLRA’s FiSMA
compliance involved Federal quality standards for inspections and audits. The FLRA
Inspector General also requested an 2007 sufficient Office of Inspector General budget
to contract the conduct of an independent and objective information technology testing
for FISMA, NIST and OMB information technology security systems.

The FLRA Inspector General evaluation affirmed that most of the FLRA’s information
systems are low impact and most existing security system controls satisfy NIST security
requirements. Those that have not been implemented include Information Technology
policies created by the FLRA CIO/Director, Information Resource Management Division
in 2005, hiring or training a current Information Resource Management employee to
serve as an Information Technology Security Officer and eliminating an excessive
amount of e-mail spams. Until information technology security policies are approved
and implemented, the FLRA has a risk for cost overruns, re-work, and waste of
resources.




                                36th Semi Annual Report
                                      Page 8 of 55
This FLRA Inspector General evaluation did affirm that the FLRA CIO focused
extensively on addressing previously identified vulnerabilities, did use the NIST 800-70
Security Configuration Checklist Program and used the 2003 Security Guide to upgrade
the FLRA network. This evaluation also affirmed that the FLRA CIO created a POA&M,
which related to the FLRA’s mission and functions and implemented Continuity of
Operations Plan to mitigate risks associated with service disruptions. FLRA has to
continue focusing on keeping it’s information security updated and address
vulnerabilities when they are identified to prevent future problems.

FLRA Oversight Corrective Actions

The new FLRA Executive Director has begun to review FLRA Office of Inspector
General findings and recommendations, which were not responded to after the issuance
of FLRA Office of the Inspector General audits, internal reviews and investigations. The
FLRA Inspector General recommended the FLRA Executive Director provide
implementation dates for findings and recommendations from the last two years
oversight activities first and then address previous recommendations and provide
information that affirms implementation or future implementation dates or provide
information that supports canceling these previous recommendations because of
changes in the FLRA’s administrative programs and management operations.

ADDITIONAL ACTIVITIES

Training

During this reporting period, the FLRA Inspector General attended the following training:

      -- PCIE/ECIE Conference
      -- Government Performance Summit
      -- Security Information
      -- Microsoft Vista (Potomac Forum)
      -- Government Executive Intelligence Reform
      -- FLRA Management Training
      -- Government Executive Strategic Sourcing
      -- Government Executive Best Practices in Contracting

Executive Counsel of Integrity and Efficiency (ECIE)

The FLRA Inspector General attends the ECIE monthly meetings on a regular basis to
make sure that the FLRA Office of Inspector General is current and aware of operations
and issues related to ECIE Inspectors General.

Review of Regulations

During this reporting period, the FLRA Inspector General reviewed:

                                 36th Semi Annual Report
                                       Page 9 of 55
      --All FLRA Office of Inspector General instructions
      --45 FLRA Instructions
      --PCIE/ECIE General Plan and Oversight Program for Financial Statement Audits

Oversight Corrective Actions

Security Issues

During this reporting period, the FLRA had no security issues.

The FLRA Office of the Inspector General findings and recommendations from 1998 to
the present were submitted to FLRA management during this reporting period.
Management was asked to provide information to the FLRA Inspector General
regarding management actions related to addressing the oversight activities’ findings
and recommendations, which have been open from l998 to the present. The new
appointed FLRA Executive Director has begun to review the findings and corrective
actions and has responded to the Inspector General regarding several findings related
to programs and operations, which have changed. As indicated in the 2005 Inspector
General FISMA report, the FLRA Chief Information Officer/Acting Director of Information
Resource Management has addressed many of the FLRA’s information security
corrective actions. New information technology policies have been submitted to FLRA
management, which must be approved before they can be implemented.

The following list contains all findings and corrective actions not yet addressed by FLRA
management.




                                 36th Semi Annual Report
                                       Page 10 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

     Report No.       Recommendation                   Target                Actual Date Status
     Issued Date                                       Completion
NARA Evaluation of    I/8(a) Develop a self-                                             Open
FLRA                  evaluation records manage-
Section I             ment checklist and distribute.

                        (b) Conduct periodic           Conduct every 3                   Ongoing
                      evaluations.                     years on October 1.

                        (c) Ensure recommend-          Implement every                   Ongoing
                      dations are implemented.         3 years.

Section II            II /1: Ensure that the
                      maintenance of records           Revised target date               Open
                      documenting agency actions,      to 9/30/03.
                      policies and procedures are
                      current and distributed to
                      staff.

                      II/2(a) Review working case      2/30/99.                          Open
                      files retention.


                          (b) Meet with office         Revised target date               Open
                      Directors to develop retention   to 9/30/03.
                      schedules for all records not
                      in current schedule and get
                      recommendations for changes
                      to current schedule.


                         (c) Develop retention         Revised to 9/30/03.               Open
                      schedules for new records
                      and make changes to current
                      schedules.




                                 36th Semi Annual Report
                                       Page 11 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

     Report No.             Recommendation                    Target         Actual Date   Status
     Issued Date                                            Completion

Section II – cont.       (d) Submit new schedule       Revised to 9/30/03.                 Open
                      for Archivist’s approval.


                         (e) Include approved          Revised to 9/30/03.                 Open
                      schedule in updated instruct-
                      tion 1323.1.

                      II/3: Require offices to         Revised to 9/30/03.                 Open
                      separate temporary and
                      permanent case files.


                      II/4: Ensure that photographs    Revised to 9/30/03.                 Open
                      that are a part of a permanent
                      case file conform to 36 CFR
                      § 1232.


                      II/5: Establish a Vital          Revised to 9/30/03.                 Open
                      Records Program.


                      II/6: Identify vital FLRA        Revised to 9/30/03.                 Open
                      records and enact measures to
                      protect and update them, and
                      ensure their availability
                      during emergencies.
                                                                                           Open
                      II/7: Consider the offsite       Revised to 9/30/03.
                      maintenance/storage of
                      copies of vital records.

Section III           III/1: Identify which FLRA       Revised to 9/30/03.                 Open
                      records are not covered by
                      records schedule or the
                      General Record Schedules.


                                  36th Semi Annual Report
                                        Page 12 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

     Report No.            Recommendation                    Target          Actual Date   Status
     Issued Date                                           Completion

Section III – cont.   2. Develop and submit to        Revised to 9/30/03.                  Open
                      NARA proposed records
                      schedules for unscheduled
                      records.


Chicago Regional      3. Formalize the creation       Revised target date                  Open
Office                maintenance/disposition of      9/30/03.
                      administrative records to the
                      same extent as program
                      records.

                      4. Offer records management     Revised target date                  Open
                      guidance to staff on            9/30/03.
                      electronic Records
                      Management and FOIA
                      procedures (including E-
                      FOIA amendments).

Management Letter     1. Update all FLRA              Newly established                    Open
4/19/98               delegations of authority,       policy & Planning
Instructions/MOU      memoranda of under-             position will
Update                standing, and instructions to   coordinate/division,
                      reflect current mission.        as appropriate, to
                                                      accomplish
                                                      revisions and up-
                                                      dates on a rolling
                                                      basis.

                      2. Distribute updated policy                                         Open
                      to all managers and make
                      them available to all
                      employees in one central
                      folder on the FLRA website
                      along with updated index.




                                 36th Semi Annual Report
                                       Page 13 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006


     Report No.            Recommendation                  Target           Actual Date     Status
     Issued Date                                        Completion
Ltr. dated: 9/28/99   1. Establish an accountability Revised target date   HR will work     Open
OPM Review of         system to assess management 4/30/00.                 with Human
FLRA Human            utilization of human                                 Capital Office
Resources Program     resources.                                           position,
                                                                           assigned in
                                                                           accordance
                                                                           with OPM
                                                                           guidelines on
                                                                           newly enacted
                                                                           legislation.

                      2. Study quality of              4/30/00.                             Open
                      performance feedback and
                      provide strategies for
                      ensuring sufficient quality
                      performance feedback is
                      provided to employees.

Audit of the FLRA     Review all current personnel                                          Open
FY 98 Financial       files to ensure payroll, leave
Statements and        and benefits information is
Central Services      correct and reconciles that
Fund (Report No.      which is maintained by
99-01-September       Denver Payroll Operations
1999)                 Division and take appropriate
                      action to recon ciliate any
                      overpayments or under
                      payment found. The results
                      of this effort should be
                      specifically reported to the
                      FLRA Inspector General.




                                 36th Semi Annual Report
                                       Page 14 of 55
Federal Labor Relations Authority
Office of Inspector General
Corrective Actions Status
Fiscal Year 2006

     Report No.            Recommendation                    Target     Actual Date   Status
     Issued Date                                           Completion
Audit of the FLRA     Review, update and revise as    .                               Open
FY 98 Financial       necessary, FLRA Regulation
Statements and        2301.1 Financial Manage-
Central Services      ment System to reflect
Fund                  contemporary policy,
                      including a requirement for a
                      documented yearly review of
                      financial management
                      statements by the Executive
                      Director and audits of
                      financial statements by an
                      independent source on a
                      yearly basis.

Internal Review of    1. Create centralized           Management does                 Open
FLRA External         Administrative Tracking         not concur that
Affairs May 2000      System.                         Agency needs a
                                                      centralized
                                                      administrative
                                                      tracking system
                      2. Develop/implement FLRA                                       Open
                      External Affairs Policy.

Internal Review of    1. Create Agency Policy for                                     Open
FLRA External         Compliance with the             .
Affairs May 2000      Paperwork Reduction Act



Investigation         1. Create Agency Policy for     .                               Open
2000-I-30             compliance with the
August 2000           Paperwork Reduction Act.




                                 36th Semi Annual Report
                                       Page 15 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

     Report No.            Recommendation                    Target      Actual Date   Status
     Issued Date                                           Completion
FLRA Information      13. Define rules of behavior                      Estimated      Open
System Security       for each system based on         .                12/30/05
Audit 2001            management’s defined level
                      of acceptable risk.

Internal Review of    1. Director, BFD should                                          Open
FLRA’s Travel         prepare overarching general
Program               agency travel policies, which
FY 2001               address requirements,
                      expectations and prohibitions
                     2.Update, revise or cancel                                        Open
                     existing obsolete travel
                     instructions and guidance
                     including:
                     -FLRA travel Guideline
                     Handbook.
                      -Guidance on reimbursable
                      support.
                      3. Ensure that all lists and                                     Open
                      policies that are sent to the
                      National Business Center,
                      National Travel Service, Inc.,
                      and Citibank are current.
                      4. Director, BFD should                                          Open
                      discuss the use of FLRA’s
                      formatted travel reimburse-
                      ment vouchers and address
                      any deficiencies with the
                      Director, IRM.
                      5. FLRA Travel Manager                                           Open
                      should request that National
                      Travel website to
                      accommodate FLRA’s
                      travelers needs and ensure
                      that al FRLA employees are
                      trained to use the website
                      .



                                 36th Semi Annual Report
                                       Page 16 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year -2006
    Report No.             Recommendation                    Target     Actual Date   Status
    Issued Date                                            Completion
Internal Review of    6. Require FLRA travelers to
FLRA’s Travel         use Hotel Occupancy tax                                         Open
Program FY 2001       Elimination Forms while on
                      government travel. Compile
                      list of states that honor and
                      fail to honor such forms and
                      distribute such forms and
                      distribute to FLRA
                      employees.
                      8. Director BFD should work
                      with National Business                                          Open
                      Center to set criteria,
                      standards and policies for
                      ravel reimbursement.
                      1. Conduct a cost benefit                                       Open
                      analysis for automating the
                      procurement system and
                      implement if cost effective

                      2. Establish a MOA with an
                      executive Agency to
                      administrate FLRA contract
                      appeals.

                      3 Brief FLRA management
                      on basic federal procurement
                      requirements.

Management Letter 1. Create internal policy                                           Open
Fair Act Compliance (include competition plan) for
                    contracting our commercial
                    activities.
                    2. Annually see management
                    input to validate inherently
                    governmental and
                    commercial activities




                                 36th Semi Annual Report
                                       Page 17 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

    Report No.              Recommendation                   Target       Actual Date   Status
    Issued Date                                            Completion

Management Letter 3. Perform cost analysis on                                           Open
Fair Act Compliance positions identified in the FY
                    2002 and future Fair Act
                    submission private sector as
                    well as federal organizations
                    before contracting with
                    federal agencies.

                      4. Include justifications                                         Open
                      retaining defined non-
                      inherently government
                      positions in the FLRA
                      5. Assign future               .
                      responsibility for competitive                                    Open
                      outsourcing including Fair
                      Act Compliance, to the FLRA
                      Contracting Officer.


                      1. Provide Regional Office      5/2002                            Open
                      Personnel contemporary          Proposed Action
                      training in customer service,   Plan to implement
                      communication, behavioral       Investigation
                      and other pertinent human       findings deferred
                      capital training.               by Chairman,
                                                      FLRA.

                      2. Provide Atlanta Regional                                       Open
                      Office employees training on
                      federal, FLRA and OGC
                      administrative requirements
                      including employee rights
                      and responsibilities




                                 36th Semi Annual Report
                                       Page 18 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.              Recommendation                         Target     Actual Date Status
Issued Date                                                  Completion
Management Letter       3. Provide new Atlanta                                        Open
Fair Act Compliance     Regional Office employees
Cont.                   with on site training on OGC
                        unfair labor practice charge
                        and representation case
                        processing policies.

                        5. Obtain qualified person to                                 Open
                        perform a Myers Briggs
                        Analysis and use this analysis
                        for employees to understand
                        behavioral interactions,
                        perceptions and reactions.

Investigation 2002-I-   6. Have Director, Atlanta                                     Open
33                      Regional Office document
                        and discuss all new internal
                        procedures and expectations
                        and distribute to all
                        employees.

                                                                                      Open
                        7. Have Director, Atlanta
                        Regional Office document all
                        individual and staff
                        counseling.
                                                                                      Open
                        8. Have Director, Atlanta
                        Regional Office continue
                        supporting high work
                        standards and standards of
                        conduct, cross training, and
                        employee mentoring and
                        development.




                                   36th Semi Annual Report
                                         Page 19 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.                 Recommendation                   Target     Actual Date Status
Issued Date                                               Completion

Internal Review of    1. Create and provide FLRA                                   Open
Debt Collection       employees with policy/
November 2002         guidance on the use of
                      Government credit card (both
                      previous IG audit/internal
                      reviews on Simplified
                      Acquisitions and the Travel
                      Program recommended this.)
                      FLRA policy should
                      incorporate the cancellation
                      of a credit card if an
                      individual misuses the card
                      more than once.

                      2. Require the FLRA                                          Open
                      Contracting Officer and
                      Travel Manager to conduct
                      monthly reviews on
                      government credit card usage
                      by FLRA employees pursues
                      questionable items and
                      document findings. The
                      Executive Director should
                      review this documentation at
                      least semi-annually.

                      3. Require supervisors to
                      provide employees                                            Open
                      information on the use and
                      misuse of the government
                      credit card and provide more
                      oversight over employees
                      who have misused their cards.




                                36th Semi Annual Report
                                      Page 20 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.                 Recommendation                     Target     Actual Date Status
Issued Date                                                 Completion
                                                                                     Open
                      1. BFD should generate
                      transactional report for
                      General Ledger Accounts
                      #4870 and 4880 to determine
                      the nature of transactions
                      being recorded, processed         .
                      and changed that are needed
                      to properly record transaction
                      affecting these accounts.

                      2. BFD should accrue for                                       Open
                      annual invoices received and
                      not yet processed with a fiscal
                      year subsequent processing
                      date.

                      3. BFD should check                                            Open
                      Citibank invoices received
                      and not yet processed by the
                      end of the fiscal year and
                      establish dollar thresholds
                      that have not been accrued in
                      the previous invoice accrual
                      and determine if goods or
                      services have been received
                      prior to the end of the fiscal
                      year. This determination
                      should be documented.

                      4. BFD should review old,                                      Open
                      undelivered orders and de-
                      obligate them prior to fiscal
                      year end if they are no longer
                      valid.




                                 36th Semi Annual Report
                                       Page 21 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date Status
Issued Date                                             Completion

                      5. BFD should resend                                       Open
                      invoices for Federal Agency
                      receivables and have the
                      National Business Center
                      (Denver) pursue these
                      collections.

                      6. FLRA should request two                                 Open
                      copies of non-reproducible
                      reports in order to ensure
                      support documents are
                      retained. BFD should pursue
                      retaining electronic versions
                      of system-generated reports.

                      7. FLRA should implement                                   Open
                      procedures to ensure that both
                      the journal entries for the
                      disposition of fixed assets and
                      correction of expenditures
                      erroneously capitalized as
                      fixed assets are performed in
                      a timely manner to ensure
                      proper statement of the
                      general ledger at the fiscal
                      year end.

                      8. Expenditures recorded to                                Open
                      fixed assets should be
                      properly reviewed prior to
                      recording to ensure each of
                      the expenditures meet the
                      definition of capitalized
                      assets.




                                 36th Semi Annual Report
                                       Page 22 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                          Target     Actual Date Status
Issued Date                                                 Completion
                      The Administrative Services                                    Open
                      Division should review 9.
                      Copiers and other office
                      automation centrally and the
                      number of vendors should be
                      minimized to obtain
                      economic purchases and
                      efficiencies in maintenance
                      and operation.

                      10. FLRA should identify                                       Open
                      furniture on a replacement
                      cycle with the Agency’s
                      Central Services Fund to
                      provide a systematic method
                      for budgeting for and
                      replacing furniture.

                      11. BFD should implement                                       Open
                      the use of electronic
                      spreadsheets as a standard for
                      accounting documentation to
                      allow for easy documentation
                      of explanatory notes and
                      imputing changes.

                      12. FLRA should include an                                     Open
                      amount in the accrued FECA
                      liability for the estimated
                      fourth quarter FECA claim
                      costs.

                      13. FLRA should record                                         Open
                      liability for future workers’
                      compensation.




                                  36th Semi Annual Report
                                        Page 23 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                 Target       Actual Date Status
Issued Date                                          Completion
                      14. The FLRA should pursue                              Open
                      the filling of the BFD
                      Accounting Officer position.
                                                     .
                      15. The FLRA should                                     Open
                      enhance the Accounting
                      Manual with the detail of
                      specific procedures for the
                      department staff.

                      16. FLRA should develop                                 Open
                      written budget information
                      and execution policy that
                      outlines the process; states
                      procedures utilized and
                      clarify FLRA approaches and
                      methodology.

                      17. Significant changes or                              Open
                      direction from the initial
                      budget submission should be
                      communicated to cost center
                      managers in a timely manner.

                      18. FLRA components and                                 Open
                      subcomponents should
                      develop data to support
                      effective and justifiable
                      resource allocations.

                      19. The FLRA should                                     Open
                      consider separating the
                      information Technology
                      budget from the Agency
                      Central Services Fund and
                      place it under the
                      responsibility of the Chief
                      Information Officer.



                                 36th Semi Annual Report
                                       Page 24 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date Status
Issued Date                                            Completion
Executive Summary     1. FLRA Authority                                         Open
FLRA Case             Members/Chief Counsels
Processing            should develop standard
                      policy and timeliness for case
                      processing, including the
                      average length of time the
                      case should be at various
                      stages of its process.
                      2. The FLRA Chief Counsels                                Open
                      need to work with the
                      Director, Case Control Office
                      to expand the current system
                      and establish a complete and
                      interactive automated Case
                      Tracking System.
                      3. FLRA Authority Members                                 Open
                      should standardize their case
                      processes, internal goals,
                      internal controls and
                      performance standards for all
                      of their employees.
                      4. FLRA Authority Members                                 Open
                      should create a standard case
                      processing policy (or manual)
                      to ensure that current and new
                      employees perform their
                      duties appropriately.
                      5. The Screening Committee                                Open
                      should be required to provide
                      more merit review and legal
                      issue information on the cases
                      they review.




                                 36th Semi Annual Report
                                       Page 25 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
Executive Summary     6. The Authority cases                                     Open
FLRA Case             should be reviewed
Processing Cont.      thoroughly by each Chief
                      Counsel
                      7. Input from the Members at                               Open
                      the time of case assignment
                      and more interaction among
                      the Members and their senior
                      staff would eliminate
                      repetition.
                      8. The Authority should                                    Open
                      consolidate the issuance of
                      the Issue Memorandum for
                      non-complex cases and
                      implement a Member/Chief
                      Counsel Meeting.
                      9. The Director, Case                                      Open
                      Control Office, Members’
                      Senior Chief Counsels should
                      once again with the Chief
                      Information Officer and
                      Director, Information
                      Resources Management to
                      improve the current case
                      tracking system to support
                      Authority Member Office
                      case tracking process.
                      10. Add an additional FTE to                               Open
                      the Collaborative Alternative
                      Dispute Resolution Office to
                      enable the Authority process
                      of resolution to expand.




                                36th Semi Annual Report
                                      Page 26 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
Executive Summary     11. The Authority should                                    Open
Cont.                 plan a training conference for
                      Federal agency.

Follow-up on FY       1. Human Resources                                          Open
2000 FLRA IG          Division should prepare a
Review of FLRA’s      work plan specifically related
Human Capital         to the FY 2000 Findings and
                      Recommendations.
                      2. Establish an integrated                                  Open
                      senior leadership/
                      management team to address
                      human capital issues and
                      provide justified
                      recommendations to the
                      Chairman.
                      3. Reinstate monthly                                        Open
                      management meetings during
                      which current management
                      issues are discussed and each
                      manager is required to brief
                      all managers on major
                      activities.
                      4. FLRA components should                                   Open
                      be briefed on behavior and
                      communication interactions
                      and communication
                      interactions and engage in
                      personality testing. (Myers
                      Briggs Type indicator and/or
                      Strong Interest Inventory).
                      This could be done in-house
                      or at an offsite meeting.




                                 36th Semi Annual Report
                                       Page 27 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
Follow-up on FY       5. The Agency needs to                                       Open
2000 FLRA IG          compile more human capital
Review of FLRA’s      statistics to make proper
Human Capital         human capital decisions. The
Cont.                 following data should be
                      considered to be collected by
                      HRD:

                      --workforce data,
                      --skills inventory,
                      --dates and dispersal of
                         performance appraisal,
                      --yearly vacancies and time
                         time period required to fill
                         them,
                      --yearly data on number and
                         cost of bonuses, awards and
                         other incentives,
                      --yearly statistics on griev-
                        ances,
                      --EEO complaints and costs
                      in dollars,
                      --costs of promotions and
                         within grade increases,
                         and amount per employee
                         spent for training and its
                         percentage of the operating
                         budget.
                      6. Update the FLRA                                           Open
                      Strategic Plan and have
                      management revise
                      component action plans and
                      employee work and
                      performance plans with focus
                      on agency-wide results.




                                 36th Semi Annual Report
                                       Page 28 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
Follow-up on FY       7. The Chairman, FLRA                                      Open
2000 FLRA IG          should appoint a Human
Review of FLRA’s      Capital Officer and/or Senior
Human Capital         Management Committee who
Cont.                 should address Agency-wide
                      human capital issues and
                      work with the Director, HRD
                      to ensure agency-wide
                      compliance with the
                      President’s Management
                      Agenda’s human capital
                      standards.
                      8. FLRA/HRD should                                         Open
                      perform an Agency-wide
                      employee skills inventory. It
                      definitely would provide a
                      baseline for skill needs,
                      employee training and future
                      hiring.
                      9. All FLRA supervisors                                    Open
                      should be required to provide
                      employees with work plans
                      and individual development
                      plans.

Internal Review of    1. Add contemporary safety,                                Open
FLRA’s                health, and security
Occupational Safety   information including the
& Health Issued       Emergency Plan and a current
August 2003           list of FLRA policy to the
                      website as well as the
                      Orientation Package given to
                      new employees.




                                 36th Semi Annual Report
                                       Page 29 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                      Target       Actual Date   Status
Issued Date                                               Completion
                      2. Increase Agency-wide                                        Open
                      training for FLRA safety and
                      health programs. Ensure that
                      all supervisors are
                      knowledge, aware of OSHA
                      requirements and provide
                      contemporary information to
                      their staffs. Include volunteer
                      training to CPR and increase
                      safety evacuation information
                      to include maps of areas,
                      where to ensure employee
                      safety.
                      3. FLRA/HRD should ensure                                      Open
                      that all OSHA statistics and
                      records be maintained so that
                      the FLRA is in compliance
                      with the OSHA requirements.
                      4. FLRA/HRD should                                             Open
                      expand its definition of
                      sensitive positions to, at least,
                      include Security Officers,
                      Computer Information
                      Officers and both senior and
                      line managers and comply
                      within its Drug Free
                      Workplace Plan by randomly
                      testing at least one person per
                      year.
                      5. The FLRA Executive                                          Open
                      Director and Director
                      Administrative Services
                      Division should review the
                      Interagency Agreements with
                      the Department of Health and
                      Human Services and ensure
                      that all stated provisions are
                      current and addressed.


                                  36th Semi Annual Report
                                        Page 30 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
                      6. The FLRA Safety                                          Open
                      Program Manager should
                      ensure that all FLRA sub
                      components maintain
                      standardized sufficient and
                      accessible safety/protective
                      equipment.
                      7. FLRA management should                                   Open
                      prioritize the development of
                      an FLRA Continuity of
                      Operations (Contingency)
                      Plan.
                      8. Annual FLRA facility                                     Open
                      (Headquarters and Regional
                      Offices) safety checks should
                      be performed by the building
                      Security Officer or FLRA
                      Security Officer, and
                      maintained/documented and
                      followed up by ASD’s
                      Security Officer.

Internal Review of    2. Because of the significant                               Open
FLRA’s                amount of travel by some
Government            agency component and
Vehicles              subcomponent employees,
August 2003           appropriate agency internal
                      travel policy and statistics
                      need to be defined and
                      maintained by all three
                      components of the Agency to
                      properly assess travel costs
                      and budget travel allocations.




                                 36th Semi Annual Report
                                       Page 31 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.              Recommendation                     Target       Actual Date   Status
Issued Date                                                Completion
Internal Review of      3. FLRA Budget and Finance                                    Open
FLRA’s                  Division Director should
Government              semiannually monitor travel
Vehicles                transportation mileage logs
August 2003             and related costs, travel safety
                        and security incidents and
                        other related expenditures
                        cost and provided internal
                        semi-annual reports to the
                        Chairman, FLRA, Counsel,
                        Chairman of FSIP, and
                        Director of Administrative
                        Law Judges.

                      1. Director of Administrative                                   Open
                      Services Division should:
                            (a) Work with building
                      owners and maintenance
                      personnel to ensure that
                      parking garage exterior doors
                      remained locked and secured.
                            (b) Install door locks on
                      all interior doors.
Office of the General 2. The FLRA should comply                                       Open
Counsel Internal      with Public Law 106346 and
Review of Remote      create policy for employees
Duty Locations        who are or will volunteer to
March 2004            work full-time at home prior
                      to making a decision to
                      eliminate their remote duty
                      stations.




                                    36th Semi Annual Report
                                          Page 32 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.             Recommendation                     Target       Actual Date   Status
Issued Date                                               Completion
Contracting            1. FLRA management should                                     Open
Investigation Report   focus on creating and/or
August - 2004          updating policy for their
                       procurement operations and
                       providing this policy to
                       contracting employees so that
                       the subject employees are
                       properly informed of
                       changes. Contract file
                       information should be
                       standardized and submitted
                       proposals with documented
                       evaluations. Task order
                       written by FLRA managers
                       should include evaluation
                       criteria by which contractors
                       will be evaluated.

                       2. The FLRA Contracting                                       Open
                       Officer needs to understand
                       that , in spite of his authority
                       and independence to handle
                       claims and make final
                       decisions, FLRA
                       management should be
                       informed of contract related
                       problems and claims that
                       have been filed against the
                       Agency prior to processing,
                       especially when the
                       alternative dispute resolution
                       process is to be used.

                       3. FLRA management should                                     Open
                       focus more on human capital
                       and customer orient
                       relationships. Also FLRA




                                   36th Semi Annual Report
                                         Page 33 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.             Recommendation                    Target       Actual Date   Status
Issued Date                                              Completion
Contracting            management should be aware
Investigation Report   of and support appropriate
August – 2004          alternative dispute resolution
(continued)            for claims as they do for
                       unfair labor practice charges
                       and arbitration cases, which
                       provide greater satisfaction to
                       the filing party, innovative
                       methods of resolving disputes
                       and greater efficiency in
                       achieving settlements.

                       4. FLRA management should                                    Open
                       ensure that senior appointed
                       managers have knowledge
                       and/or are provided with
                       necessary training in the
                       program they are responsible
                       for managing.
FY 2004 Audit of       1. FLRA CIO develop and                                      Open
FLRA Security          maintain:
Programs
September 30, 2004          (a) A visitor log that all
                       data center visitors are
                       required to sign upon arrive
                       and departure.
                            (b) An emergency
                       contact line list.

                            (c) ASD develop
                       effective policies for
                       managing Kastle Keys and
                       direct ASD security personnel
                       to implement procedures in
                       accord with the policies
                       adopted.




                                   36th Semi Annual Report
                                         Page 34 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
FY 2004 Audit of      2. FLRA CIO should:                                         Open
FLRA Security
Programs                  (a) Fully develop
September 30, 2004    disaster recovery, IT
Cont.                 contingency business
                      continuity, and continuity of
                      operations plans.

                           (b) Provide training to
                      enable personnel to
                      effectively implement all
                      plans and require periodic
                      retraining.

                           (c) After each plan is
                      implemented, conduct and
                      document testing to ensure
                      that each plan is responsive,
                      and periodically reevaluate
                      plans and keep plans current.

                      4. FLRA CIO should                                          Open
                      Perform a C&A review in
                      accordance with NIST
                      standards and authorizes the
                      general support system for
                      processing.

                      5. FLRA should ensure that a
                      management official                                         Open
                      authorizes in writing the use
                      of each general support
                      system based on an
                      acceptance of risks identified
                      with the system certification
                      process as described by
                      NIST.




                                 36th Semi Annual Report
                                       Page 35 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion

FY 2004 Audit of      6. FLRA should ensure that                                 Open
FLRA Security         staff members adhere to a
Programs              documented policies and
September 30, 2004    procedures for performing
Cont.                 backups of networks file and
                      mail servers.

                      7. FLRA CIO should:                                        Open

                          (a) Develop a program to
                      provide annual security
                      awareness training to all
                      FLRA employees in
                      accordance with OMB
                      requirements.
                          (b) Develop proper
                      procedures to accurately
                      assess and report on the
                      program’s level of attendance
                      and effectiveness.

                      8. FLRA CIO should                                         Open
                      develop a complete Security
                      Program Plan, arrange for
                      appropriate personnel to
                      review it, revise the plan
                      accordingly and obtain
                      approval cognizant executive
                      management.

                      9. FLRA CIO should                                         Open
                      develop, document and
                      implement an incident
                      response plan consistent with
                      NIST and OMB criteria.




                                 36th Semi Annual Report
                                       Page 36 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
FY 2004 Audit of      10. FLRA should:                                            Open
FLRA Security
Programs                   (a) Take immediate
September 30, 2004    action ensure timely
Cont.                 development and
                      implementation of policies
                      and procedures necessary to
                      establish ad support FLRA’s
                      information security program.
                           (b) Develop and
                      implement policies and
                      procedures to track evaluate,
                      and monitor FLRA’s
                      information and information
                      systems security program in
                      accordance with OMB
                      Circular A-130, Appendix III
                      and ensure proper and timely
                      reporting to OMB and
                      Congress.

                      11. FLRA CIO should:                                        Open

                           (a) Develop policies and
                      procedures requiring that
                      patches be properly tested in
                      a test environment before
                      being placed into production.
                           (b) Develop a test lab to
                      adequately test patches.
                           (c) Provide training to
                      individuals to ensure that
                      multiple personnel can
                      perform critical functions and
                      activities can be performed
                      by multiple personal.




                                 36th Semi Annual Report
                                       Page 37 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
FY 2004 Audit of      12. FLRA CIO should:                                         Open
FLRA Security
Programs                   (a) Develop and
September 30, 2004    implement a formal SDLC
Cont.                 methodology based on NIST
                      guidance and ensure the
                      policy at a minimum
                      addresses the following
                      elements:
                            - Sensitivity of data to
                      be processed in the system.
                            - Resources required
                      for adequately securing the
                      system.
                            - Input from the
                      equivalent of an Investment
                      Review Board.
                            - Authorization for
                      software modification
                      documentation and
                      maintenance.
                            - Budget request to
                      include security resources for
                      the system.
                            - Security controls
                      consistent with and integral to
                      senior management’s
                      standards.
                            - Security require-
                      ments to be included in
                      solicitation documentation.




                                 36th Semi Annual Report
                                       Page 38 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                  Target       Actual Date   Status
Issued Date                                           Completion
FY 2004 Audit of            - Develop and                                        Open
FLRA Security         implement a formal change
Programs              control policy outlining the
September 30, 2004    procedures needed to ensure
Cont.                 that system configuration
                      changes are properly
                      documented, authorized,
                      approved, and tested before
                      being moved into production
                      or implemented.

                      13. FLRA Management                                        Open
                      should: suspend access or
                      implement adequate
                      procedures to mitigate risks
                      associated with CIO’s access
                      privileges to the network
                      domain servers and local
                      account passwords and follow
                      through with the Windows
                      2000 migration and rollout
                      initiatives to ensue that
                      current passwords that have
                      been compromised due to the
                      departure of the network
                      manager do not continue to
                      present the Agency with a
                      major security risk.

                      14. FLRA CIO should:                                       Open

                           (a) Develop policies and
                      procedures requiring periodic
                      review of user access
                      controlled.




                                 36th Semi Annual Report
                                       Page 39 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
FY 2004 Audit of           (b) Analyze generic
FLRA Security         accounts currently active on
Programs              the network operating
September 30, 2004    system to ensure that they
Cont.                 are appropriate and that
                      account access are
                      controlled and monitored.

                      1. Management needs to                                      Open
                      focus on information
                      technology to improve
                      FLRA information
                      technology systems.
                      Management should review
                      previous IG Reports, which
                      contain information security
                      findings and
                      recommendations.

                      2. FLRA should obtain the                                   Open
                      proper testing material and
                      scan all FLRA
                      laptops/computers
                      throughout the Agency to
                      see if they contain improper
                      websites.

2005-I-04 Access of        (c) Management should
Improper Websites     reinstate technology as an
                      integral part of its strategic
                      plan.

                      4. Management should                                        Open
                      reinstate its sub component
                      Technology Committee
                      which could provide mission
                      related problems and
                      requirements to the FLRA
                      CIO.

                                 36th Semi Annual Report
                                       Page 40 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                Target       Actual Date   Status
Issued Date                                         Completion
2005 Financial        1. Executive management                                  Open
Statement             should start the agency
Recommendations       towards FISMA compliance
                      by providing support for
                      correcting the out-of-
                      compliance situation. This
                      support should consist of
                      memoranda, policy and
                      documented directions, but
                      also of financial and
                      budgetary resource
                      allocation for the goods,
                      services, and personnel
                      needs of the agency to
                      correct the situation. This
                      support, along with the
                      undertaking of corrective
                      actions by the Chief
                      information Officer and
                      other FLRA Staff, should be
                      focused on implementing
                      the recommendation is
                      provided to the FLRA from
                      the fiscal year 2004 FISMA
                      Audit Report.

                      2. Executive management                                  Open
                      should establish who is to
                      perform Chief Financial
                      Officer duties and
                      responsibilities for the
                      agency. This individual
                      should have the appropriate
                      knowledge and skills needed
                      for fulfilling all the
                      necessary duties and
                      responsibilities.


                                36th Semi Annual Report
                                      Page 41 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
2005 Financial        3. Executive management                                     Open
Statement             should agency policies and
Recommendations       procedures are kept current
Cont.                 and in accordance with
                      existing laws and regulations.
                      This assurance would entail
                      monitoring existing policies
                      and procedures and
                      identifying those that are in
                      need of revision. For those
                      policies and procedures
                      submitted by agency directors
                      concerning changes needed
                      for adoption of the policy or
                      procedure by the agency.

                      4. FLRA should insure                                       Open
                      continuity of its operations
                      through having better support
                      providers and their services.

                      This support could be
                      provided in many different
                      ways, including obtaining
                      external system support
                      providers and their services.

                      As an interim measure, other
                      FLRA employees are given
                      the appropriate training and
                      guidance to establish
                      adequate support for the
                      continued functions. This
                      would ensure that there is a




                                 36th Semi Annual Report
                                       Page 42 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
2005 Financial        sufficient “backup knowledge
Statement             base” in other employees in
Recommendations       the event of a loss of a single
Cont.                 critical employee.

                      5. FLRA should determine                                     Open
                      the best system source for its
                      overall accounting,
                      budgetary, and financial need
                      on a going forward basis.
                      This may involve determining
                      other options available from
                      the U.S. Department of the
                      Interior as well as alternative
                      private sector or
                      governmental sources that
                      can efficiently meet FLRA’s
                      needs.

                      6. Detailed fixed assets                                     Open
                      records should be maintained
                      and reconciled to the general
                      ledger on a timely basis to
                      ensure accurate accounting
                      for assets. These records
                      should be timely and
                      appropriate updated each
                      period for asset additions and
                      subtractions resulting from
                      acquisitions, trade, disposals,
                      etc.




                                 36th Semi Annual Report
                                       Page 43 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                     Target       Actual Date   Status
Issued Date                                              Completion
2005 Financial        7. Management should                                          Open
Statement             address cash disbursement
Recommendations       procedures, accounts payable
Cont.                 procedures and internal
                      controls in its development of
                      an improved system of fiscal
                      and accounting management.
                      The process of accounts
                      payable should be core
                      function that is contained
                      within the accounting system.

                      8. The Executive Director
                      should examine the                                            Open
                      procurement process between
                      the Divisions of Budget and
                      Finance and Administrative
                      Services and ensure the
                      proper policies and
                      procedures are in place to
                      provide that FLRA
                      obligations are recorded into
                      the agency accounting
                      records into the agency
                      accounting records in an
                      accurate and timely manner.

                      In addition, the Executive
                      Director should ensure that
                      the policies and procedures
                      include adequate internal
                      control and monitoring

                      9. Information needed for                                     Open
                      each quarter closed should
                      include all necessary updated
                      information for fair statement
                      of the financial position of the
                      FLRA.

                                  36th Semi Annual Report
                                        Page 44 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                   Target       Actual Date   Status
Issued Date                                            Completion
2005 Financial        10. The process of updating                                 Open
Statement             the ability of accrued leave
Recommendations       should be conducted quarterly
Cont.                 in time for the fiscal quarter
                      accounting closed. This
                      updating should ensure fair
                      statement of the accrual by
                      obtaining accurate and
                      reliable data needed to
                      determine the accrual.

                      11. The process of updating                                 Open
                      the liabilities of accrued
                      FECA and Future Workers
                      Compensation should be
                      conducted quarterly in time
                      for the fiscal quarter
                      accounting closed. This
                      updating should ensure fair
                      statement of the accrual by
                      obtaining accurate and
                      reliable data needed to
                      determine the accrual.

                      12. Formal collection                                       Open
                      procedures should be
                      establish that included:
                           (a) The formal periodic
                      review of the account
                      receivable aged trial balance;
                           (b) The implementation
                      of procedures for contacting
                      delinquent accounts for
                      payment, such as sending
                      letters;




                                 36th Semi Annual Report
                                       Page 45 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                     Target       Actual Date   Status
Issued Date                                              Completion
2005 Financial             (c) The formal periodic
Statement             review of the account
Recommendations       receivable aged trial balance;
Cont.                      (d) The implementation
                      of procedures for contacting
                      delinquent accounts for
                      payment, such as sending
                      letters;
                           (e) A quarterly
                      assessment concerning the
                      collectibles of the
                      receivables; and
                           (f) The determination of
                      allowance for doubtful
                      accounts.

                      13. The FLRA should ensure                                    Open
                      that the PAR is delivered by
                      the regulatory die date.

                      14. Lease agreements should                                   Open
                      be reviewed for existing
                      occupied and used spaces and
                      ensure each lease is accurate
                      and complete. Any omissions
                      should be addressed and
                      followed up with appropriate
                      written requests to the lesser.

                      15. In conjunction with the                                   Open
                      back up of key accounting
                      positions, procedures are
                      established for a review of
                      manual adjusting journal
                      entries prior to entering to the
                      system.




                                  36th Semi Annual Report
                                        Page 46 of 55
Federal Labor Relations Authority
Office of the Inspector General
Corrective Actions Status
Fiscal Year 2006

Report No.            Recommendation                    Target       Actual Date   Status
Issued Date                                             Completion
2005 Financial        16. FLRA should address                                      Open
Statement             whether alternative summary
Recommendations       level information can be
Cont.                 posted to the general ledger
                      for the payroll interface. With
                      summary information by
                      department, the general
                      ledger would be greatly
                      improved as a monitoring and
                      analysis tool for management.




                                 36th Semi Annual Report
                                       Page 47 of 55
Other Activities:
Administrative Work

During this reporting period, the FLRA Office of Inspector General continued to update
files and updated/revised all FLRA Inspector General instructions most of which were
created in 1998-1999.

FLRA Security Incidents

The FLRA had no security incidents occur during this reporting period.

Investigation Activity

During this reporting period, the FLRA Inspector general conducted one administrative
investigation based on a complaint by an FLRA employee and responded to one
Congressional staff member request regarding information related to an unfair labor
practice case, which had not been issued by the Office of General Council.




                                36th Semi Annual Report
                                      Page 48 of 55
INVESTIGATION LOG

During this reporting period, the FLRA Inspector General began processing one
investigation placed on hold because of active OGC labor-management case
processing.


                    FEDERAL LABOR RELATIONS AUTHORITY
                              Office of the Inspector General
                   April l, 2006- September 30, 2006 Investigation Log

2006-I-03      Labor Management                9-13-06           Open
               Representative alleged
               improper handling of unfair
               labor practice charge case by
               Denver Regional Office.




                                 36th Semi Annual Report
                                       Page 49 of 55
HOTLINE CALLS/LETTERS. During this reporting period, the FLRA Inspector General
processed 7 Hotline calls/letters.


                     FEDERAL LABOR RELATIONS AUTHORITY
                              Office of the Inspector General
                     April 1, 2006-September 30, 2006 Hotline Log

Case No.                 Subject                    Dated                Status
                                                  Received
2006-H-12      Department of Defense           May 4, 2006      Referred to Department
               Military Officer alleged                         of Defense Inspector
               mismanagement and                                General
               improper handling of his
               complaint by Fort Dix OIG
               investigators.
2006-H-13      Department of Defense U.S.      May 11, 2006     Referred to Department
               Air Force employee alleges                       of Defense Inspector
               improper management                              General
               actions.
2006-H-14      FLRA employee alleges           May 24, 2006     Advised employee to
               improper management of                           discuss these issues with
               administrative employees                         supervisor and
               and significant changes in                       component Chairman.
               administrative policy which
               are not communicated to
               administrative employees
2006-H-15      Eye Physician/Surgeon           June 19, 2006    Referred issue to the
               wrote letter referring to his                    Department of Labor
               patient from the National                        Inspector General.
               Institute of Health regarding
               his workman’s
               compensation issue, which
               was denied by the
               Department of Labor.




                                 36th Semi Annual Report
                                       Page 50 of 55
                  FEDERAL LABOR RELATIONS AUTHORITY
                           Office of the Inspector General
                  April 1, 2006-September 30, 2006 Hotline Log

Case No.              Subject                    Dated                Status
                                                Received
2006-H-16   A retired Medical Dr. called   July 18, 2006     Referred issue to the
            and stated that she paid in                      Department of Labor
            advance a private                                Inspector General.
            construction worker to do
            work on her home. The
            construction worker refuses
            to return her calls.
2006-H-17   Florida Postal Service         August 26, 2006   Closed 8-27-06-Referred
            employee alleged that her                        to US Postal Service
            Postal Service managers and                      Inspector General.
            union managers were
            treating her improperly and
            threatening her.
2006-H-18   Miami Beach, Florida           September 27,     Referred to the
            Department of Justice          2006              Department of Justice
            Federal Bureau of Prisons                        Inspector General,
            Inmate alleged that he filed                     September 2, 2006.
            an informal resolution with
            is Counselor who stated he
            filed an informal resolution
            with his Counselor who
            stated he could not resolve
            the matter and id not return
            his BP complaint. He
            requested that the FLRA
            Inspector General (and 12
            other Federal and state
            Agencies including the
            Department of Justice)
            investigate the BP issues.




                             36th Semi Annual Report
                                   Page 51 of 55
                                            TABLE I

           INSPECTOR GENERAL AUDIT REPORTS WITH QUESTIONED COSTS
                                        NUMBER OF REPORTS         DOLLAR VALUE
A. For which no management decision has Being reviewed as part of
been made by the commencement of the       the 2006 Financial
reporting period.                           Statement Audit

B. Which were issued during the reporting       Being reviewed as part of
                                                                            0
period.                                            the 2006 Financial
                                                    Statement Audit

C. For which a management decision was          Being reviewed as part of
made during the reporting period.                    2006 Financial
                                                    Statement Audit

        (i) Dollar value of disallowed costs.                               0
                                                                            0
        (ii) Dollar value of costs not
                                                              .
        disallowed.

D. For which no management decision has           The Chairman must
been made by the end of the reporting             approve all budget        0
period.                                              expenditures


                                            TABLE II

INSPECTOR GENERAL AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE
PUT TO BETTER USE
                                              NUMBER OF REPORTS        DOLLAR VALUE
A. For which no management decision has       Currently being reviewed
been made by the commencement of the           as part of the FY 2006
reporting period.                               Financial Statement
                                                        Audit
B. Which were issued during the reporting                  0
period.
C. For which a management decision was        Currently being reviewed
made during the reporting period.              as part of the FY 2006
                                                Financial Statement
                                                        Audit
         (i) Dollar value of recommendations
         that were agreed to by
         management.
         (ii) Dollar value of costs that were
                                                                            0
         not agreed to by management.
D. For which no management decision has
                                                  2006 Financial
been made by the end of the reporting
                                                  Statement Audit
period.

                                    36th Semi Annual Report
                                          Page 52 of 55
                      FEDERAL LABOR RELATIONS AUTHORITY
                            Office of the Inspector General
                            Oversight Activities Summary
                          April 1, 2005 –September 30, 2006
SUBJECT                                                         STATUS
2006 Audit of FLRA Financial Statements                        In Process
Assessment of Personally Identifiable Information              Completed.
                                                               In Process
Internal Review of FLRA Administrative Policy
FISMA Evaluation                                               Completed

                                                               Preliminary
2006-I-                                                          Review
                                                                Started on
                                                              September 14,
                                                                  2006

                     FEDERAL LABOR RELATIONS AUTHORITY
                           Office of the Inspector General
                        CORRECTIVE ACTION SUMMARY
                         October 1, 2005 – March 31, 2006
New Corrective Actions                                             0

Open Corrective Actions Carried Over                              135

Total Actions Closed This Period                                   0


Total to be Carried Over                                          135




                                   36th Semi Annual Report
                                         Page 53 of 55
Definitions

Actions

Completion by management of either all actions necessary to implement report
recommendations or a management decision that determines no action is necessary.

Funds Be Put To Better Use

The amount of savings estimated by the Inspector General that could be obtained by
implementing report recommendations relating to more efficiency and effectiveness of
programs and operations.

Management Decision

A final decision made by management in response to audit report recommendations
that may include actions concluded to be necessary or a determination that no action is
necessary.

Management Letter

This document brings to the attention of management any of a broad range of issues
and subjects which should be addressed by management, but do not require formal
audit or investigation. Management letters are generally unplanned and are issued to
report on situations found in conjunction with an on-going or completed audit or
investigation. These letters may also be used to expand on previously issued audit
report recommendations.

Questioned Costs

Expenditures questioned by the Inspector General are usually due to the following:

Unsupported costs, which involve inadequate documentation; Disallowed costs, which
involve an alleged violation concurred with by Managements Decision of a law,
regulation, grant, contract, or another agreement; or unnecessary costs which involve
unnecessary or wasteful spending.




                                36th Semi Annual Report
                                      Page 54 of 55
REPORT FRAUD, WASTE, ABUSE, AND MISMANAGEMENT

                          TO

    THE FEDERAL LABOR RELATIONS AUTHORITY

       OFFICE OF THE INSPECTOR GENERAL

                     HOTLINE

          1-800-331-3572 (24 hr. service)

                  202-218-7744

                     or write to

                        FLRA

            Office of Inspector General

                1400 K Street, NW

                     Suite 250

             Washington, D.C. 20424




                 36th Semi Annual Report
                       Page 55 of 55
